  October 31, 2006


A Message From the Inspector General

I am pleased to present our Semiannual Report to the Congress for the period ending September 30, 2006.


In the last six months we prepared reports on performance-based budgeting, warehouse controls, the “North Carolina
Telecommunications Project” grant, the fiscal year (FY) 2005 Library-wide and Cooperative Acquisitions Program Revolving
Fund financial statements, the digital talking book program, the NEWSLINE fund, and indirect cost rates related to two of
the Library’s grant programs. We also reviewed the initiative to acquire an asset management system and project plans for
the “New Visitors’ Experience.” In addition, we followed up on our FY 2004 audit of reading room space allocations and
FY 2005 audit of succession planning, and continued to monitor visitor tunnel preparation activities. Finally, we conducted
several investigations on topics ranging from copyright infringement to personal information security.


In the next six months, we will report on in-progress reviews of the Library’s collections acquisition program, human
resources policies, travel administration, management of the contracts office, financial disbursements, research request
services, National Digital Information Infrastructure and Preservation Program grants, the Library’s and Madison Council’s
FY 2006 financial statements audits, the FY 2006 financial statements audit of the Open World Leadership Center, and
other topics.


We look forward to a continued harmonious relationship with Library management, and appreciate the support and
cooperation extended to our staff.




Karl W. Schornagel
Inspector General
Table of Contents

  Introduction...................................................................................................................................................... 1

  Audits................................................................................................................................................................... 3

                     Performance-based Budgeting..................................................................................................... 3
                     Telecommunications Grant.......................................................................................................... 3
                     Warehouse Internal Controls....................................................................................................... 4
                     Library of Congress Financial Statements ............................................................................... 5
                     Cooperative Acquisitions Program Financial Statements ...................................................... 6
  Investigations.................................................................................................................................................... 8

  Follow-Up on Prior Period Recommendations......................................................................................... 12

                     Visitor Tunnel Preparations.......................................................................................................... 12
                     Education and Research Consortium of the Western Carolinas............................................ 12
                     Succession Planning....................................................................................................................... 13
                     Reading Room Utilization............................................................................................................. 13
  Unimplemented Recommendations................................................................................................................ 14

  Funds Questioned or Put to Better Use.................................................................................................... 17

  Instances Where Information or Assistance Requests Were Refused................................................ 18

  Status of Recommendations Without Management Decisions.............................................................. 18

  Significant Revised Management Decisions.............................................................................................. 18

  Significant Management Decisions With Which OIG Disagrees......................................................... 18

  Other Activities................................................................................................................................................ 19

  Review of Legislation and Regulations..................................................................................................... 21
Introduction

The mission of the Office of the Inspector General is to promote economy,
efficiency, and effectiveness by detecting and preventing waste, fraud, and
abuse.

To accomplish our mission, we conduct audits and investigations. Our goals, objectives, strategies, and performance
indicators can be found in our Strategic Plan, available on our Web site at http://www.loc.gov/about/oig.


In addition to conducting audits and investigations, we lend our expertise on a consulting basis to many Library offices
and external organizations. We are currently working with the Center for Research Libraries in an advisory capacity to
determine an approach for auditing and certifying repositories of digital information.


Our philosophy is to be proactive rather than audit “after the fact.” We believe this approach results in a more efficient use
of resources by detecting and preventing problems early. Accordingly, we are following several key projects throughout the
Library and rendering assistance and making recommendations as needed.


Our highly qualified staff of eight auditors and two investigators is educated and certified in various disciplines. We
are, collectively, five certified public accountants, two attorneys, two certified internal auditors, one certified information
systems auditor, and one librarian.




                                                                                       Semiannual Report to the Congress          1
The U.S. Capitol: National Statuary Hall viewed from the south




2   Semiannual Report to the Congress
Audits
Performance-Based Budgeting                              Performance Management Information System
                                                         – Planning should begin now for an automated
Audit Report No. 2004-FN-501                             entity-wide performance management information
September 2006                                           system.

Congress has directed the legislative agencies           Coordination of Functions – Library management
including the Library to begin to use performance        should coordinate efforts for workforce
based budgeting (PBB). PBB is designed to improve        transformation, performance management, and
governmental accountability by linking budget            PBB.
decisions to results. This provides decision-makers
with the means to objectively evaluate and allocate      Library management generally disagreed with our
budgetary resources. We conducted a review of            recommendations. As a result, they are unresolved
the Library’s current budgeting process with the         at this time.
objective of evaluating Library management’s
progress in moving toward PBB.
                                                         Telecommunications Grant

Our audit found that the Library has initiated           Audit Report No. 2006-FN-502
the development of several components of PBB,            September 2006
including significant emphasis on revamping
its strategic planning process. We concluded             In December 2001, the Library awarded the North
that the Library’s development of PBB could be           Carolina Telecommunications Project (“the grant”)
improved with a plan of action and milestones            to the Education and Research Consortium of the
that coordinates PBB development with other              Western Carolinas, Inc. (ERC). The grant’s purpose
performance management functions. Specifically,          is to provide a low-cost, high-speed connection
we made the following recommendations for
                                                         between the Library of Congress and educational
improving and expediting the Library’s transition
                                                         facilities, libraries, and networks serving the western
to PBB:
                                                         Carolinas.

Plan of Action and Milestones – The Library
                                                         We performed an audit of the grant. Our objective
should develop a plan that identifies the roles of key
                                                         was to determine if ERC was administering the
members of senior management as well as milestones
                                                         grant according to its terms and conditions and
for the completion of key PBB elements.
                                                         applicable laws and regulations. Overall, we found
                                                         that ERC was adequately administering the grant,
Administrative Officer – The Chief Financial Officer
                                                         but had some findings and recommendations, as
should be appointed as the PBB administrative
officer.                                                 follows:


Policy Improvements – The Library should                 Noncompliance with Certain Grant Provisions –
enhance its policy for Planning, Budgeting, and          ERC did not comply with certain grant provisions.
Program Performance Assessment by designating            First, it did not maintain a separate grant bank
responsibility for conducting external environmental     account for program income. As a result, it may not
assessments, identifying duplications in programs        have been able to distinguish between grant funds
and services, and exempting areas from certain           and program income. Second, ERC has neither
elements of PBB where its use is impractical.            acknowledged the Library in certain materials


                                                                       Semiannual Report to the Congress           3
      publicizing the grant, nor obtained the Library’s approval    physical inventory controls and inventory record accuracy,
      prior to using its name in other materials. As a result,      as well as physical security for the warehouse will result.
      the Library’s ability to protect the goodwill and prestige    Our findings and recommendations are summarized as
      associated with its name is impaired and the general public   follows:
      is denied the opportunity to know how its tax money is
      being spent. We recommended that ERC immediately              The Logistics Section Has Not Maintained Physical
      establish a separate bank account for grant program income,   Accountability of its Inventory – For the two years prior to
      begin acknowledging the Library in the grant’s publicity      thefts of computers, warehouse staff had neither performed
      materials, and stop using the Library’s name without prior    inventories of assets stored at the warehouse, nor maintained
      approval.                                                     perpetual inventory records. During our field work,
                                                                    Logistics was adding inventory data into a new automated
      Lack of Adequate Policies and Procedures – ERC’s              inventory system, “Intellitrack.”         We recommended
      Operating Policies Manual did not contain procedures for      conducting periodic counts of the highly susceptible
      drawing down funds, determining allowability of costs,        assets and comparing the counts with inventory records.
      administering program income, acknowledging and using         We also recommended limiting access to the Intellitrack
      the Library’s name, or for making key personnel changes.      system and assigning the Assistant Head of Logistics or a
      As a result, adequate safeguards did not exist to control     designated alternate responsibility for recording inventory
      ERC’s program and financial management of the grant.          adjustments.
      We recommended that ERC make appropriate revisions to
      its policy manual to provide procedures to address these      Security Measures Did Not Sufficiently Address the Threat
      important management areas.                                   of Employee Theft – Overall security needs to be better
                                                                    targeted to address the threat of employee theft. Although
      Both ERC and the Library’s Grants Management Office           infrastructure security weaknesses are being addressed,
      concurred with our findings, and have already begun           additional inspections are needed to further improve
      implementing our recommendations.                             overall security.

      Warehouse Internal Controls                                   Better Separation of Duties and Reconciliations Should
                                                                    Improve Receiving and Shipping – To improve inventory
      Attestation Report No. 2005-AT-904
                                                                    integrity, we recommended separating the functions
      June 2006
                                                                    of entering information into the Intellitrack inventory
                                                                    system and performing the custodial activities such as
      The Library’s Logistics Section manages more than 100,000
                                                                    receiving, shipping, and storing physical assets. We also
      assets valued at over $200 million. Because of recent
                                                                    recommended that Logistics periodically reconcile all back
      thefts of Library computers from the Landover Annex
                                                                    orders with the service units to determine if the vendors
      Warehouse, we conducted a review of the internal control
                                                                    filled the orders.
      system in place at the warehouse to determine whether
      inventory controls, management oversight, and physical
                                                                    Greater Separation of Duties Is Necessary To Ensure
      security were comparable to best industry practices.
                                                                    Integrity of the “Computers for Learning” Program –
      We determined that the controls are not comparable to         Landover warehouse staff are responsible for both processing
      best industry practices. However, management has taken        requests from charitable organizations to participate in the
      action in the past two years to address control weaknesses.   program and disposing of surplus property. Management
      If these actions and our recommendations are properly         should assign someone not working at the Landover
      implemented and pursued continuously, improvements in         warehouse responsibility for processing and approving


4   Semiannual Report to the Congress
participation requests. We also recommended considering        identified numerous safety hazards in the Library’s three
the surplus program operated by Dell Computers, Inc. as        Capitol Hill buildings. As of this semiannual period, the
a best practice.                                               Library has abated ninety-nine percent of the fire safety
                                                               hazards for which it is responsible, and has devised a plan
The Library’s warehousing and security officials generally     of action to abate the remaining open items.
agreed with our findings.
                                                               Internal Controls Over Financial Reporting – The auditors
Library of Congress                                            did not express an opinion on internal controls. However,
Fiscal Year 2005 Financial Statements                          their evaluation of those controls revealed the following
                                                               reportable conditions:
Audit Report No. 2005-FN-502
May 2006
                                                               Weaknesses in the General Support Systems (GSS)
Kearney & Company audited the Library’s consolidated           (Modified Repeat Condition) – The General Support
balance sheets as of September 30, 2005 and 2004, and          Systems include hardware and supporting utility software
the related consolidated statements of net costs, changes in   to maintain the overall system. Effectively applied, controls
net position, and financing, and the combined statements       in this area increase the likelihood that data confidentiality,
of budgetary resources for the fiscal years then ended. In     integrity, and availability are maintained in the application
the auditors’ opinion, the financial statements, including     systems.
the accompanying notes, present fairly in all material
respects the financial position of the Library and its net     The auditors identified control weaknesses in the
costs, changes in net position, budgetary resources, and       Library’s GSS that affected the availability, integrity, and
financing in conformity with generally accepted accounting     confidentiality of all applications and data residing in the
principles. The Library’s financial statements were delayed    processing environment. In order to address the control
because of the implementation of its new financial system      concerns, the Library’s Information Technology Services
in FY 2005.                                                    (ITS) developed the Financial Hosting Environment
                                                               (FHE) to maintain only certified and accredited GSS and
                                                               applications. ITS completed the FHE in late June 2005.
The auditors also performed tests of compliance with laws
                                                               While the FHE has appropriate risk assessments, security
and regulations; considered internal controls over financial
                                                               plans, and security testing and evaluations, it was in place
reporting and compliance; and in a separate report,
                                                               for only three months of FY 2005, and therefore could not
examined management’s assertion about the effectiveness
                                                               be relied on for the nine months of activity prior to the
of internal controls over safeguarding collections assets.
                                                               FHE’s implementation.

The auditors found one instance of non-compliance with
                                                               Entity-Wide Security Program Not Fully Implemented
laws and regulations. The auditors performed tests of          (Modified Repeat Condition) – The Library had not
compliance with certain provisions of laws and regulations     implemented an entity-wide security program in
and determined that during FYs 2005 and 2004, the              compliance with Library of Congress Regulation 1620,
Library was not in compliance with the Congressional           “Information Technology Security Policy of the Library of
Accountability Act of 1995. In the Act, Congress made          Congress.”
its facilities and employees subject to the same safety laws
that apply outside the legislative branch. The Office of       While the Library developed a plan and strategy for
Compliance conducted a yearlong fire safety investigation      an entity-wide security program (dated July 2005), the
that culminated in a report issued in January 2001 that        program had not been implemented entity-wide. As of



                                                                                     Semiannual Report to the Congress           5
      January 2006, however, the Library established a more            (the Fund) and issued its Independent Auditor’s Report.
      comprehensive entity-wide security program.                      The auditors concluded that the financial statements,
                                                                       including the accompanying notes, present fairly in all
      Management’s Assertion About the Effectiveness of Internal       material respects the financial position of the Fund as of
      Controls Over Safeguarding Collections Assets – Although         September 30, 2005 and 2004. The auditors found no
      the valuation of the collections of heritage assets is not       material weaknesses in internal controls over financial
      reported in the Library’s balance sheet, the assets represent    reporting but did find two instances of noncompliance
      an important stewardship responsibility requiring a system       reportable under Government Auditing Standards:
      of controls to ensure accountability. To this extent, the
      Library includes in its financial statements a stewardship       Noncompliance with the Congressional Accountability
      report and makes an assertion about the effectiveness of the     Act – This finding mirrors the Library’s finding listed on
      internal controls over collections assets.                       page 5 regarding safety violations.


      The auditors evaluated internal controls over collections        Noncompliance with Public Law 105-55 – This law requires
      assets by examining, on a test basis, evidence supporting        the Fund to submit audited financial statements to the
      management’s assertion and by performing such other              Congress no later than March 31 of each year for the prior
      procedures as they considered necessary. The auditors            fiscal year. The audit of the Fund’s financial statements
      believe that because of inherent limitations in internal         was delayed beyond its statutory due date because of the
      controls as of September 30, 2005, unauthorized                  implementation of the Library’s new financial system. The
      acquisitions, use, or disposition of collections assets may      Library advised the appropriate Congresional oversight
      occur and may not be detected, and that the Library fairly       committees of the delay in issuing the statements.
      represents that it cannot assert that collections inventory
      controls are fully implemented when heritage assets are in       The Fund is a component of the Library’s consolidated
      processing and in storage.                                       financial statements. The Library processes all of the
                                                                       Fund’s financial transaction. Therefore, the two reportable
      Cooperative Acquisitions                                         conditions related to Information technology that were
      Program Revolving Fund                                           identified in the Library’s financial audit also affected the
      Fiscal Year 2005 Financial Statements                            Fund’s internal control structure.

      Audit Report No. 2005-FN-502
      August 2006

      In 1958, the Congress approved Public Law 83-480,
      authorizing the Library to use foreign currencies that accrued
      to the government from sales of agricultural commodities
      to finance the acquisition of books, periodicals, and other
      materials. The law led to the formation of the Library’s
      overseas offices and Cooperative Acquisitions Program.


      Kearney & Company audited the FY 2005 and 2004
      balance sheets and the related statements of net costs,
      changes in net position, budgetary resources, and financing
      of the Cooperative Acquisitions Program Revolving Fund



6   Semiannual Report to the Congress
The U.S. Capitol: Section of the West Corridor

                                                 Semiannual Report to the Congress   7
      Investigations

      During this reporting period we opened – and closed – 21 investigations. We referred four cases to
      the U.S. Attorney’s Office; of those, three were declined and one is pending. We recovered $4,000 in
      telephone credits, and prevented the illegal sale of 29 National Library Service for the Blind and Physically
      Handicapped (NLS) talking book players. We also forwarded four cases to Library management for
      administrative action. Case and Hotline activity are detailed below:




       Table 1: 	Investigation Case Activity
                                         Criminal/Civil               Administrative                    Total
       Beginning of period                     8                           20                            28
       Opened                                  7                           14                            21
       Closed                                  3                           18                            21

       End of Period                            12                           16                           28




       Table 2: 	Hotline Activity
                                                                            Count
       Allegations received                                                   2
       Referred to management for action                                      4
       Opened as investigations                                               1
       Closed with no action                                                  1




8   Semiannual Report to the Congress
Significant Criminal and                                        when applying at the Library. As a result, her Library
Administrative Investigations                                   employment was terminated.

Telecommunications Abuse - 800 Number                           Unauthorized Use of the Library’s Name

A Cataloging Distribution Services (CDS) manager                The OIG received a complaint alleging unauthorized use of
complained to the Office of the Inspector General (OIG)         the Library’s name for commercial purposes and solicitation
about hundreds of harassing telephone calls from Puerto         on Library property. Our investigation determined that
Rico to the CDS 1-800 Audix number. The calls incurred          representatives of a company that marketed retail sales
significant charges billed to CDS and limited recording         discounts had distributed coupons to Library staff in one
space for legitimate calls. The manager also complained         of the Library’s buildings. The print on the coupons read:
that over several months, AT&T had not resolved the             “Compliments of the Library of Congress.” We referred
problem. OIG special agents documented the offending            the matter to the Library’s Office of General Counsel,
calls and worked successfully with AT&T’s law enforcement       who responded by enforcing existing Library regulations
liaison to obtain a credit for past and future calls from the   disallowing commercial vendors on Library property.
Puerto Rico caller, including a $4,000 credit for prior         Previously, vendors had been allowed if a sponsoring Library
charges. Agents identified and contacted the caller in an       organization received a percentage of sales receipts.
unsuccessful attempt to stop the calls. We enlisted the
services of the ITS, who responded by setting up an Audix       “Nigerian 419” Internet Scam
account to redirect the harassing calls. A local telephone
company in Puerto Rico is contemplating a civil action          OIG agents acted on a tip from an external law enforcement
against the caller. We may pursue criminal charges if the       source that an employee was communicating via Library
problem persists.                                               e-mail with foreign nationals from Nigeria and Ghana
                                                                engaged in an Internet fraud known as the “Nigerian 419”
Copyright Infringement                                          scam. The scammers promised to send the employee a
                                                                large amount of money after he paid some related expenses,
A Library contractor reported that an audio book that was       duping the employee into sending them approximately
narrated exclusively for NLS was for sale on eBay. OIG          $30,000. The employee also provided his Social Security
agents determined that the seller, a convicted felon, had       number, birth date, and home address, thus exposing him
sold 84 of the copyright-protected items after converting       to identity theft and further loss. OIG agents coordinated
them to digital audio format. An Assistant U.S. Attorney        with the Library’s Interpretive Services staff to refer the
declined to prosecute. The seller was banned from selling       employee to an organization that would help him protect
on eBay and NLS removed the individual from its Talking         his remaining assets, and referred information about the
Books program.                                                  employee’s misuse of government time and equipment
                                                                to Library management. Disciplinary action is pending.
Falsifying Federal Employment Data                              OIG agents also referred specific information about the
                                                                scam to the U.S. Secret Service.
The Department of Labor (DOL) OIG alerted us to
their arrest of a Library employee for stealing credit card     Falsification of Time and Attendance Records
information from the DOL and making unauthorized
purchases while working there as a contractor. OIG agents       Library management officials alleged that two employees
determined that although fired from her contractor position     had engaged in time and attendance fraud. OIG agents
at the DOL, she had failed to disclose the termination          examined records, security surveillance video tapes, and



                                                                                    Semiannual Report to the Congress          9
      electronic access files, which revealed significant      Proactive Initiative: Internet Surveillance
      fraud. Faced with the evidence, both subjects
      admitted to falsifying time and attendance records.      We continue to monitor the Internet for stolen
      An Assistant U.S. Attorney declined prosecution.         Library property. During this reporting period, we
      One employee retired immediately following the           found 29 NLS cassette players and/or phonographs
      OIG interview; a removal action has been proposed        for sale on eBay. The sellers were contacted and
      against the other.                                       directed to return the items to NLS.

      Personal Information Improperly Discarded                Case Updates

      An unattended trash bin in a public area containing a    Misuse of Government Equipment
      large amount of personal information was discovered
      by OIG staff. Social Security numbers, credit card       We previously reported a case involving evidence
      receipts, and personal records were visible. OIG staff   that a GS-14 employee had illegally accessed
      promptly advised the responsible manager about           another employee’s e-mail account and forwarded
      proper methods for disposal of personal information      a derogatory message from the account to another
      and management immediately tightened security            Library employee. Management suspended the
      procedures. The unsecured information may have           employee for 30 days.
      exposed individuals to identify theft.
                                                               Employee Attempts to Destroy Library Books
      Computer Incident
                                                               We previously reported a case involving a Library
      An automation liaison employee working for               employee who had intentionally placed 23 books in
      NLS reported a key logger (a spyware tool)               a trash bin. Management removed the employee
      installed on a computer used to process financial        from his position for misconduct.
      and administrative information. An OIG agent
      transported the computer to the Library’s Security
      Operations Center where it was examined by
      a Computer Incident Response Team member.
      Examination determined that the key logger had
      been installed without malicious intent. Members
      of the Security Operations Center and the Incident
      Response Team, which includes the OIG, provided
      several recommendations to Library management
      to prevent a recurrence.




10 Semiannual Report to the Congress
The U.S Capitol Crypt




                        Semiannual Report to the Congress   11
      Follow-Up on Prior Period Recommendations
      Effecting positive management change in Library programs         Design and Construction (FD&C). We reviewed the
      and activities requires a four-phase approach: (1) identifying   NVE operating plan and determined that Library Services
      areas that could benefit from OIG reviews, then planning         has planned for the expected relocation of Library staff
      audits, (2) conducting audits and reporting the results,         due to the reconfigured space. We found that FD&C has
      (3) obtaining agreement from Library managers to take            worked with the NVE team in developing scopes of work
      action to resolve recommendations, and (4) following up to       and contracting with architectural and engineering design
      determine that implementation has occurred. Significant          firms. The NVE team has developed an intranet Web site
      recommendations from previous semiannual reports                 as a means of communicating current NVE news to the staff
      on which corrective action has not been completed are            and introduced the NVE theme “Bringing Knowledge Into
      contained in Table 3 on page 14.                                 Life,” to Library staff at a Town Hall Meeting in August.


      We conducted three reviews this period to follow up on           Based on our survey work, we believe that the planning
      audits reported in prior semiannual reports:                     framework established by the NVE team is effectively
                                                                       addressing the Library’s plans for the NVE. We will
                                                                       continue to follow the Library’s progress in FY 2007.
      Visitor Tunnel Preparations
                                                                       Education and Research
      Survey Report No. 2005-PA-102                                    Consortium of The Western Carolinas
      June 2005
                                                                       Report No. 2006-OF-701
      In FY 2005 we conducted an audit survey of preparations          Fiscal Year 2005 Indirect Cost Rate
      for opening the tunnel between the Jefferson Building and
      the Capitol Visitor Center (CVC). We found that activities       In FYs 2000 and 2002, the Library awarded the “Adventure
      requiring long lead times had been planned and executed to       of the American Mind” and the “North Carolina
      prepare for opening the tunnel to the public. We followed        Telecommunications Project” grants to ERC. Both grants
      up on this survey in September 2006. In our follow-up we         incorporate Office of Management and Budget Circular
      determined that all construction required to accommodate         A-133 requirements. These requirements, among others,
      the tunnel had been completed.                                   mandate that an entity’s Federal cognizant agency is
                                                                       responsible for negotiating and approving its indirect cost
      In anticipation of the increased number of visitors to           rates. As the cognizant agency for ERC, the Library is
      the Library due to the opening of the CVC, the Library           responsible for approving indirect cost rates on behalf of all
      is embarking on a program called the “New Visitors’              federal agencies providing funding to ERC.
      Experience” (NVE) that will reconfigure space in the Jefferson
      building to add and significantly enhance exhibits and the       We evaluated ERC’s FY 2005 indirect rate proposal and
      experience of visiting the Library. Project management for       found errors in equipment classification and other issues.
      this program is under the Librarian’s Chief of Staff. The        ERC agreed with our findings and revised its FY 2005
      project will be opened in phases, with the first expected to     indirect rate proposal. We negotiated a rate .36 percent
      coincide with the opening of the CVC in 2007.                    lower than the revised rate.

      We conducted a survey of the status of preparations for the
      NVE. We interviewed the Chief of Staff, key personnel in
      Library Services, and Integrated Support Services’ Facility




12 Semiannual Report to the Congress
Succession Planning                                              Reading Room Utilization

Audit Report No. 2004-PA-105                                     Audit Report No. 2003-PA-104
March 2005                                                       March 2004

In March 2005, we issued an audit report on the Library’s        In March 2004, we issued an audit report on the utilization
succession planning efforts. Our objective was to                of the Library’s reading rooms. Library Services has 20
determine if the Library had a strategy to deal with the         reading rooms/information centers, the Congressional
emerging challenges of maintaining its workforce into the        Research Service (CRS) two, and the Law Library one.
21st century.
                                                                 The objective of our audit was to determine whether reading
We found that the Library’s service units (aside from the        room space is utilized in the most efficient way possible.
Congressional Research Service and Copyright Office)             We found that, in general, Library Services and the Law
did not have succession plans, and had not identified            Library accumulated inconsistent and inaccurate reference
critical positions to ensure continuity of leadership and        statistics. Notwithstanding the limited usefulness of the
knowledge. Therefore, we recommended that the Library,           statistics, we found that there was evidence of a substantial
with Human Resources Services at the helm, prepare a             decline in the number of in-person visits to the Library.
formal succession planning program. This program would
provide guidance on succession planning to Library offices.      We recommended that Library Services and the Law
We also recommended that Library offices link succession         Library obtain more accurate and useful reading room
planning to their training and strategic plans and also          usage data. We believe the use of a uniform sampling
identify mission-critical positions.                             methodology would improve the reliability and efficiency
                                                                 of reference counts and create greater uniformity across
So far, the Library has resolved two of our recommendations.     reading rooms. Furthermore, we recommended that CRS,
The Strategic Planning Office (SPO) recommended that             the Law Library, and Library Services perform structured
Library offices’ FY 2007 Annual Program Performance              requirements analyses to determine reading room space
Plan objectives focus on workforce development and               requirements. For many years, most of the Library’s
succession planning, and Library offices are now linking         reading rooms have been in the same physical location and
some components of succession planning to their training         configuration, but their space requirements had not been
and strategic plans. At the same time, Library offices are in    formally evaluated. Finally, we recommended that Library
the process of identifying their mission-critical positions.     Services develop a decision model to help make decisions
                                                                 about space usage. A standardized model would help
Notwithstanding progress in those areas, the Library has still   management more objectively and consistently determine
not implemented a formal succession planning program.            the most appropriate use of space.
The Deputy Librarian has, however, agreed to include key
succession planning components – the identification of           Since then, CRS and the Law Library have implemented
key skills, knowledge and training needs, and leadership         the spirit of our recommendations. Library Services has
competencies – in the Library’s Workforce Transformation         implemented a system to better measure reading room
Initiative. We will evaluate the effect of these actions once    usage, however, more than two and a half years after we
that initiative is under way.                                    issued our report, the remaining recommendations to
                                                                 Library Services remain open.




                                                                                      Semiannual Report to the Congress          13
  Unimplemented Recommendations

   Table 3: 	Significant Recommendations from Previous Semiannual
              Reports for Which Corrective Action Has Not Been Completed
                                 Report No. and
             Subject                                Service Unit      Rec. No.             Summary of Recommendations
                                   Issue Date
   Office of the Librarian
                                                      Office of                    Revise LCR 2020-7 to allow complainants to
   Dispute                         2002-PA-104
                                                      Workforce           III      use dispute resolution during the formal EEO
   Resolution Center              September 2003
                                                      Diversity                    complaint process.
                                                      Operations
                                   2001-PA-105
   Learning at the Library                           Management           I.G      Provide training to new supervisors.1
                                    April 2003
                                                     and Training
   Equal Employment                                   Office of
                                    2001-PA-104
   Opportunity                                        Workforce            I       Evaluate and revise LCR 2010-3.1.2
                                   February 2003
   Complaints Office                                  Diversity
                                                                                   Mandate a Library-wide succession planning
                                   2004-PA-105       Office of the
   Succession Planning                                                    I.1      program that endows Human Resources
                                   March 2005         Librarian
                                                                                   Services with a strong leadership role.3
   Office of Strategic Initiatives4
   FY 2004                                           Information
                                   2004-FN-502
   Financial Statements/                             Technology            1       Fully implement an entity-wide security program.
                                   February 2005
   Info. Technology                                    Services

   Integrated Support Services

   Inventory and
                                   2004-PA-103                                     Reevaluate space needs for the future warehouse
   Equipment                                              ISS             I.2
                                   March 2005                                      planned at Ft. Meade.
   Management
                                   2005-PA-101                                     Document policies and procedures and
   Transportation Services                                ISS             I.B
                                   March 2006                                      centralize transportation activities.




  1
   The Library has implemented a new training program for new supervisors. Included are online training courses and instructor-led
  training. Due to budgetary constraints, the instructor-led portion has been delayed until later in FY 2007. Once fully implemented,
  this program will satisfy the intent of our recommendation.

  2
      LCR 2010-3.1 is currently being revised.

  3
      See page 13 for a discussion of this topic.

  4
   (a) The Library’s external auditors modified and consolidated current and prior year financial statements findings into the one
  finding shown here. (b) Due to the implementation of the Library’s new financial system, the auditors’ opinion on the Library’s
  FY 2005 financial statements was not released until May 2006. (c) According to ITS, substantial progress was made during FY
  2005 toward implementing this recommendation. The external auditors, conducting the FY 2006 audit of the Library’s financial
  statements, are currently reviewing documentation supporting this assertion.

14 Semiannual Report to the Congress
Table 3: 	Significant Recommendations from Previous Semiannual
           Reports for Which Corrective Action Has Not Been Completed (continued)
                          Report No. and
          Subject                                 Service Unit       Rec. No.           Summary of Recommendations
                              Issue Date
Office of the Chief Financial Officer
Management                      2004-PA-106          Strategic                  Revise the MCP Process to better identify
                                                                         I
Control Program                 March, 2006       Planning Office               control weaknesses.
Management                      2004-PA-106          Strategic
                                                                         II     Implement an automated tracking system.
Control Program                 March, 2006       Planning Office
Management                      2004-PA-106          Strategic
                                                                        III     Implement a verification review process.
Control Program                 March, 2006       Planning Office
Management                      2004-PA-106          Strategic
                                                                        IV      Improve the MCP communications mechanism.
Control Program                 March, 2006       Planning Office
Management                      2004-PA-106          Strategic
                                                                         V      Report implementation delays to the Librarian.
Control Program                 March, 2006       Planning Office
Office of Security and Emergency Preparedness
                                2003-PA-105                                     Develop a mission statement and engage in a
Management of Police                                  OSEP             53,545
                                August 2004                                     greater level of strategic planning.
                                                                                Develop a regulation defining and designating
Emergency                       2005-PA-104
                                                      OSEP               I      authority for the Emergency Preparedness
Preparedness Program            March 2006
                                                                                Program.
Emergency                       2005-PA-104
                                                      OSEP              III     Develop or obtain a threat/risk assessment.
Preparedness Program            March 2006
Emergency                       2005-PA-104                                     Develop an annual training plan and provide
                                                      OSEP              VI
Preparedness Program            March 2006                                      more emergency response training.
Emergency                       2005-PA-104                                     Improve communications and training for
                                                      OSEP              VII
Preparedness Program            March 2006                                      disabled staff and disability monitors.
                                                                                Develop an MOU with the Capitol Police and
Emergency                       2005-PA-104
                                                      OSEP           VIII,IX    the Architect of the Capitol to clarify authority
Preparedness Program            March 2006
                                                                                for directing emergency situations.
Library Services6
Utilization of                  2003-PA-104                                     Develop a decision model for determining
                                                  Library Services      II.1
Reading Rooms                   March 2004                                      reading room space requirements.
Utilization of                  2003-PA-104                                     Use the model to make decisions about reading
                                                  Library Services      II.2
Reading Rooms                   March 2004                                      room, office space, and storage requirements.




5
    Recommendation numbers refer to an external consultant’s report.

6
    See page 13 for a discussion of this topic.

                                                                                         Semiannual Report to the Congress          15
The U.S. Capitol Dome viewed from the south

 16 Semiannual Report to the Congress
Funds Questioned or Put to Better Use
Table 4:	Audits with Recommendations for Better Uses of Funds
Reports...                                                                           Number       Value
…for which no management decision was made by the start of the period.                 -            -
…issued during the period.                                                             -            -
                                                                         Subtotal      -            -
…for which a management decision was made during the reporting period:

           Value of recommendations agreed to by management.1                           1	        $4,000

           Value of recommendations not agreed to by management.                       -             -

…for which no management decision was made by the end of the reporting period.         -             -
…for which no management decision was made within six months of issuance.              -             -




Table 5:	Audits with Questioned Costs
Reports...                                                                           Number       Value
…for which no management decision was made by the start of the period.
                                                                                        -            -

…issued during the period.                                                              -            -


                                                                          Subtotal      -            -
…for which a management decision was made during the reporting period:

              Value of recommendations agreed to by management.                         -            -

              Value of recommendations not agreed to by management.                     -            -

…for which no management decision was made by the end of the reporting period.
                                                                                        -            -

…for which no management decision was made within six months of issuance.
                                                                                        -            -




1
    See “Telecomunications Abuse - 800 Number” on p. 9.




                                                                              Semiannual Report to the Congress   17
      Instances Where Information or
      Assistance Requests Were Refused

      There were no instances during the period concerning the Library’s unreasonable refusal to provide
      information or assistance, or any other refusal from a Federal, State, or local government agency.




      Status of Recommendations
      Without Management Decisions

      During the reporting period there were no recommendations more than six months old without management
      decisions.



      Significant Revised Management Decisions
      During the reporting period there were no significant revised management decisions.




      Significant Management Decisions
      with which OIG Disagrees


      During the reporting period there were no significant disagreements with management about decisions
      on OIG recommendations.




18 Semiannual Report to the Congress
Other Activities

Newsline Financial Information                                  Conversion to Digital Talking Books

Special Review Report No. 2006-FN-504                           Survey Report No. 2006-PA-101
July 2006                                                       August 2006

Pursuant to a request by the Chairman of the House              We performed a survey of the NLS project to convert and
Appropriations Committee (Committee), the OIG                   replace the primary technology used in the national library
conducted a special review of financial information about       program that provides talking books, playback equipment,
the NEWSLINE fund of the appropriation for the NLS.             and Braille materials for blind and physically handicapped
                                                                patrons. NLS’ plans call for digital books and equipment
The Chairman requested an explanation for the erroneous         to begin replacing analog cassette books and machines in
information that the Library reported to the Committee          FY 2008 and become the program’s primary technology
in May 2006. The information involved $993,500 that             by FY 2011. Based on our survey, we determined that an
was made available for NEWSLINE’s operation through             audit of the project is not necessary at this time.
the FY 2003 appropriation. The Chairman specifically
asked whether the NEWSLINE account was properly                 Information we collected led us to conclude that NLS’
established in the Library’s previous financial system and      plans should enable it to successfully convert the talking
properly converted to its new system. He also requested         book program’s primary technology from analog to digital
that each transaction be identified that should have been       format over the currently planned transition period.
recorded in the account, the locations be identified where      Specifically, our survey revealed that NLS is effectively
those transactions were recorded in the financial system,       managing its plans to:
and the reason for their erroneous recording.
                                                                · develop a digital playback machine and related
We determined that:                                               equipment,

·	 The NEWSLINE fund was not properly established in            · test and validate the new playback machine throughout
   the former financial system, but a correction was made         its evolution from design to full production, and
   prior to conversion to the new financial system.
                                                                · produce 20,000 talking book titles in digital format by
·	 Because of the way the correction was made, some of            the time the new playback machine becomes available in
   NEWSLINE’s financial information was not properly              FY 2008.
   converted to the Library’s new financial system.
                                                                Despite NLS’ progress in these areas, we are concerned
·	 Three NEWSLINE expenditures totaling $993,500 were           that an acquisition plan has not been prepared for the
   incorrectly recorded.                                        manufacturing phase of the digital equipment. Acquisition
                                                                planning is a requirement of the Federal Acquisition
As a result of these errors, the Library corrected the          Regulation (FAR) for all acquisitions made by executive
NEWSLINE account and enhanced its procedures for                branch agencies. Moreover, it is Library policy to follow
identifying and correcting errors in its financial system. In   the FAR in the procurement of goods and services unless
spite of the error in the conversion of this information, we    it is formally determined that following it is not in the
confirmed that the results contained in the OIG report,         Library’s best interest. The Chief of the Library’s Office
“Financial System Conversion Reconciliation,” reported in       of Contracts acknowledged that acquisition plans are
our March 2006 Semiannual Report, are valid.                    required by the FAR, but noted that because the Director



                                                                                    Semiannual Report to the Congress         19
      position is vacant for the Office of Contracts and Grants        Annual Financial Statements Audit
      Management, FAR-specified internal procedures have not
      been established for the Library to address the regulation’s     Report No. 2006-FN-503
      requirements.                                                    Request for Proposal

                                                                       In FY 2006 we sent a Request for Proposal (RFP) to five
      It is clearly in the Library’s best interest to have a written
                                                                       audit firms for bids on the next five-year contract for
      acquisition plan for the manufacturing phase of the digital
                                                                       financial statements audits of the Library of Congress,
      equipment, and the lack of internal procedures should not
                                                                       James Madison National Council Fund, and the Open
      prevent the Library from preparing one. By preparing
                                                                       World Leadership Center. The RFP was completely
      an acquisition plan for this major acquisition of digital
                                                                       rewritten from prior years based on guidance from The
      equipment – estimated to cost $140 million over five years
                                                                       President’s Council on Integrity and Efficiency and the
      – the Library would not only be following the FAR and its
                                                                       Executive Council on Integrity and Efficiency.
      own policy, but would also be in line with standard federal
      agency practice. Therefore, we recommended that NLS
                                                                       The primary changes were in the presentation of a more
      work closely with the Chief of the Office of Contracts
                                                                       detailed list of deliverables for each audit, with a suggested
      to promptly prepare a written acquisition plan for the
                                                                       time line, in order to ensure timely delivery of a quality
      manufacturing phase of the digital playback equipment.
                                                                       audit. The payment schedule was changed from one based
                                                                       on payment for hours worked, to one based on satisfactory
      Acquisition of Maximo
                                                                       acceptance of deliverables. The minimum contract
      Project No. 2006-SP-801                                          deliverables and estimated due dates were described in
      Project Plan Review                                              detail to enable the successful bidder to anticipate the
                                                                       contract requirements. We expect this change in structure
      At the request of the Library’s Chief Financial Officer, we      to allow us to more closely match the disbursement of
      performed a review of the Maximo acquisition process.            funds with the receipt of deliverables and therefore better
      Maximo, a software package that integrates with the              monitor the contractor.
      Library’s new financial system, was intended to be the
      Library’s choice as an inventory- and asset-management           The proposals received were evaluated by the Technical
      system. We began our review in December 2005 in                  Evaluation Panel, which scored each bidding firm by three
      response to the Chief Financial Officer’s concern that the       separate, weighted factors including relevant experience
      Library’s pace of assessing the possibility of implementing      and past performance, corporate resources and staff
      Maximo was stalling.                                             qualifications, and technical approach. While cost was a
                                                                       substantial factor, it was considered along with the factors
      We determined that although the Library had acquired             listed above. A contract was awarded to the successful
      Maximo in 2004, it had not yet implemented the software.         bidder, pending passage of the FY 2007 appropriation
      In June 2006, we advised the Deputy Librarian that the           bill.
      Library had not fully analyzed and compared its asset
      management requirements to Maximo’s capabilities.
      Subsequently, the Library’s Executive Committee decided
      that the Library needed to renew attention to the Maximo
      investment, and a project was initiated at the committee’s
      direction to analyze the Library’s asset-management
      requirements.



20 Semiannual Report to the Congress
Review of Legislation and Regulations

Table 6:             Review of Library of Congress Regulations
      LCR Reviewed                           Comments by the Office of The Inspector General
                             The Office of Security and Emergency Preparedness is proposing to update the regulation
LCR 1811
                             on employee identification cards. We recommended against issuing the proposed draft
Employee Identification
                             because it did not vest the Office of Security and Emergency Preparedness with enough
Cards
                             authority to protect the integrity of the badging function.

                             Human Resources Services is proposing to replace 30 regulations on pay administration
                             with one comprehensive policy. We suggested adopting language contained in the
LCR 2013
                             Government Accountability Office’s pay administration policy to explain which federal
Pay Administration
                             statutes the Library must follow. Additionally, we suggested inserting hyperlinks to federal
                             pay regulations posted on the Federal Register’s Web site.

LCR 2010-7
Employment of Non-U.S.
                            We had no comments on this proposed regulation.
Citizens Using Appropriated
and Non-Appropriated Funds




                                                                                 Semiannual Report to the Congress          21
                   This Page Intentionally Left Blank




22 Semiannual Report to the Congress
This Page Intentionally Left Blank




                        Semiannual Report to the Congress   23
                   This Page Intentionally Left Blank




24 Semiannual Report to the Congress
